         AUDIT OF USAID’s FUND BALANCE
         WITH THE U.S. TREASURY AND
         RELATED INTERNAL CONTROLS
         FOR FISCAL YEAR 2000
         Report No. 0-000-01-005-F
         February 15, 2001




        OFFICE OF INSPECTOR GENERAL
U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT
Financial information contained in this report may be privileged. The restriction of 18 USC 1905 should be
                       considered before any information is released to the public.
U.S. AGENCY FOR
INTERNATIONAL
 DEVELOPMENT




        MEMORANDUM FOR CFO, Michael T. Smokovich

        FROM:          IG/A/FA, Alvin A. Brown

        SUBJECT:       Independent Auditor’s Report on USAID’s Fund Balance with the U.S.
                       Treasury and Related Internal Controls for Fiscal Year 2000. Report No.
                       0-000-01-005-F

        This is our audit report on the U.S Agency for International Development’s (USAID’s) Fund
        Balance with the U.S. Treasury and related Internal Controls. This report is being
        transmitted to you as part of our audit of USAID’s consolidated financial statements which is
        required by the Government Management and Reform Act of 1994.

        Because of problems noted in previous years’ audits, we agreed with USAID officials to
        focus our fiscal year 2000 audit efforts on the material line items on USAID’s balance sheet.
        This report is one in a series of reports that communicate the results of our audits conducted
        on the selected line items reported on USAID’s Fiscal Year 2000 Balance Sheet.

        This audit was performed to determine whether adequate internal controls were implemented
        by USAID to permit reliable reporting of its Fund Balance with the U.S. Treasury as of
        September 30, 2000. We determined that USAID has implemented adequate internal
        controls to permit reliable reporting of its fund balance with the U.S. Treasury account as of
        September 30, 2000.

        We have received and considered the CFO’s response to our draft report and its
        recommendation. We made two recommendations for USAID’s management action. Based
        on your comments, we accepted your decision as management decision. Please forward to
        me all information on your request to the Office of Management and Planning and
        Innovation for acceptance of the final management action related to the recommendations.
        See Append ix II for USAID’s Management Comments.

        I would like to express my sincerest appreciation for the courtesies extended by your staff to
        the auditors.




                                                       1
Background
The United States Agency for International Development was created in 1961 to advance the
United States' foreign policy interests by promoting broad-based sustainable development
and providing humanitarian assistance. USAID has an overseas presence in 70 countries; 42
of which have operational and formal USAID missions.

According to the U.S. Department of the Treasury procedures, 1 the Fund Balance with the
U.S. Treasury account is an asset account representing the future economic benefit of monies
that can be spent for authorized transactions. Federal agencies must use the Fund Balance
with the U.S. Treasury account to reconcile with the Department of the Treasury, Financial
Management Services (FMS) records.

In previous years, we could not express an opinion on USAID’s financial statements because
our audit was impaired. Our audits of those years indicated that USAID’s poorly functioning
accounting and financial management systems and other previously reported material internal
control weaknesses caused this impairment. For those years, we concluded that these
                                                                         2
deficiencies in USAID's accounting and financial management systems created
consequential risks that the financial statements could contain material misstatements. The
amount of substantive testing required to express an opinion on the fairness of the
presentation of USAID’s financial statements would have been prohibitive and unattainable
by the statutory deadline of March 1, for submitting the audited financial statements to OMB.
Accordingly, we did not express an opinion on the fairness of the financial statements.

In our fiscal year 1999 audit report, 3 we noted that USAID’s Fund Balance with the U.S.
Treasury was not reliable. While USAID has improved in this area, we identified several
continuing problems that hindered USAID’s ability to reconcile differences with the fund
balance account. Specifically, USAID’s Office of Financial Management and the overseas
missions did not consistently reconcileresearch and resolvedifferences identified
between USAID’s records and the U.S. Treasury’s records. In fiscal year 1999, USAID’s
Office of Financial Management made unsupported adjustments of a net $21.8 million
($266 million in absolute dollar value) that brought its cash balance in agreement with
Treasury’s balance. According to USAID’s Office of Financial Management officials, this

         1
                  Fund Balance with Treasury Reconciliation Procedures: A Supplement to 1 TFM 2-5100,
August 1999.
         2
                  According to OMB Circular A-127 and the Chief Financial Officers’ Act, a financial
management system includes supporting systems that contain the information needed to carry out financial
management functions, manage financial operations, and report financial status information. The systems
provide the information managers need to (1) carry out their fiduciary responsibilities, (2) deter fraud, waste,
and abuse; and (3) relate financial consequences to agency program performance. Thus, in addition to basic
accounting functions, USAID's financial management system includes supporting systems that perform
performance measurement, budget, and procurement functions.
         3
                 Report on USAID’s Fund Balance with the U.S. Treasury and Related Internal Controls for
Fiscal Year 1999 (Audit Report No. 0-000-99-005-F), February 17, 2000.


                                                         2
adjustment has been made since fiscal year 1996 because they believed that Treasury’s
balance was more accurate than their fund balance in the general ledger. In addition, USAID
had not implemented a system of funds control to manage appropriated fund s as required by
Title 31 of the United States Code (USC) and the General Accounting Office’s Policy and
Procedures Manual for Guidance of Federal Agencies. These material weaknesses affected
USAID’s ability to prepare auditable financial statements.



Audit Objective
For fiscal year 2000, USAID’s Office of Inspector General agreed with USAID Management
that it would be advantageous for the audit to concentrate on selected major balance sheet
items including the Fund Balance with the U.S. Treasury. Accordingly, the objective of this
audit is as follows:

Were Adequate Internal Controls Implemented by USAID to Permit Reliable
Reporting of its Fund Balance with the U.S. Treasury as of September 30, 2000?

The objectives of internal control are to provide management with reasonable, but not
absolute, assurance that the following objectives are met:

       •   Transactions are properly recorded and accounted for to permit the preparation of
           reliable financial reports and maintain accountability over assets;

       •   Funds, property, and other assets are safeguarded against loss from unauthorized
           acquisition, use, or disposition; and

       •   Transactions, including those related to obligations and costs, are executed in
           compliance with laws and regulations that could have a direct and material effect
           on the financial statements and other laws and regulations that the Office of
           Management and Budget or USAID Management have identified as being
           significant for which compliance can be objectively measured and evaluated.

Our consideration of internal control would not necessarily disclose all matters of internal
control over financial reporting that might be reportable conditions. Under standards issued
by the American Institute of Certified Public Accountants, reportable conditions are matters
coming to our attention relating to significant deficiencies in the design or operation of
internal controls that, in our judgment, could adversely affect USAID’s ability to record,
process, summarize, and report financial data consistent with the assertions of management
in the financial statements. Material weaknesses are reportable conditions in which the
design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that errors or irregularities in amounts, which would be material
in relation to the financial statements being audited, may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions.



                                               3
See Appendix I for a discussion of the scope and methodology for the audit.

The following section presents our findings and recommendations for those matters that we
consider reportable conditions.


Audit Findings
Were Adequate Internal Controls Implemented by USAID to Permit Reliable
Reporting of its Fund Balance with the U.S. Treasury as of September 30, 2000?

We determined that USAID has implemented adequate internal controls to permit reliable
reporting of its Fund Balance with the U.S. Treasury account as of September 30, 2000.
USAID improved its procedures for reconciling and clearing differences with the U.S.
Treasury and its funds control.

Despite these improvements, we identified reportable conditions that if corrected would
enable USAID to provide a more reliable account of its Fund Balance with the U.S. Treasury
and more reliable financial information to its oversight agencies at fiscal yearend. These
reportable conditions do not have a material impact on USAID’s Fund Balance with Treasury
line item. The significant reportable conditions are as follows:

        1. USAID did not consistently reconcile its Fund Balance with the U.S. Treasury
           accounts, and

        2. USAID did not consistently comply with OMB reporting requirements.


This report provides two recommendations to assist USAID Management in the
improvement of its Fund Balance with the U.S. Treasury reconciliation and reporting and
complying with applicable laws and regulations.


USAID Did Not Consistently Reconcile
Its Fund Balance with the U.S. Treasury

The U.S. Department of Treasury’s guidance 4 for reconciling fund balances requires that
Federal agencies research and resolve differences reported by the U.S. Treasury on a monthly
basis. Agencies must also resolve all differences between the balances reported in their
general ledger Fund Balance with the U.S. Treasury accounts and the balances reported by
the U.S. Treasury. This guidance stipulates three months as a reasonable period for clearing
the differences.



        4
                 Fund Balance with Treasury Reconciliation Procedures, A Supplement to the Treasury
Financial Manual, ITFM 2-5100, August 1999.


                                                    4
The reconciliation process contains two steps: (1) identify the differences between USAID’s
records and the U.S. Department of Treasury’s records and (2) research and resolve these
differences. Some of the differences are timing differences that will be eliminated with the
passage of time, while other differences are accounting and posting errors that must be
corrected. The U.S. Treasury reconciliation procedures state that an agency may not
arbitrarily adjust its Fund Balance with U.S. Treasury account. The procedures further state
that an agency can adjust its Fund Balance with the U.S. Treasury account balance only after
clearly establishing the causes for any errors and properly correcting those errors. In
addition, the procedures state that an agency should document “Month cleared” (the
accounting month that the discrepancy was adjusted and recorded “cleared”), accounting
periods, required explanations, and brief narratives that disclose the cause of the discrepancy.
USAID did not consistently follow the first and second steps of the reconciliation process.

As of September 30, 2000, USAID continued to have immaterial unreconciled differences
between the fund balance amounts in its records and the amount reported by the U.S
Treasury. According to USAID officials, the unreconciled items, which resulted from
transactions initiated by the Office of Financial Management in Washington, were caused by
system deficiencies and the unreconciled items, which resulted from overseas mission
transactions, were caused by the lack of adequate documentation for the disbursements and
collections. Further, many of these differences were created prior to fiscal year 2000. As a
result, USAID’s Office of Financial Management made unsupported year-end adjustments of
about $18.6 million net ($82.9 million in absolute dollar value) to bring its September 30,
2000 cash balance in agreement with Treasury's balance.

The 2000 difference was an improvement over the 1999 difference 5 . Despite these
improvements, USAID needs to continue researching and resolving all outstanding
reconciling items. Therefore, we are making the following recommendation:


        Recommendation No. 1:We recommend that USAID’s Office of Financial
        Management:

                 1.1 Continue to perform a detailed analysis of its outstanding reconciling
                     items, which were reported by the overseas missions, and to resolve or
                     write off the remaining reconciling items.

                 1.2 Reconcile the mission adjustment account in the general ledger to the
                     cumulative amounts in the mission ledgers and resolve differences
                     between the general ledger and the mission ledgers.




        5
                  In the September 30, 1999 financial statements the fund balance difference between USAID
and the U.S. Treasury was net $21.8 million ($266 million in absolute value).


                                                     5
Reports to the Oversight Agencies

The Office of Management and Budget (OMB) Circular A-34, which governs the preparation
and submission of the Report on Budget Execution, requires that the budget reports be
submitted quarterly through FACTS II 6 and a paper copy of the budget reports for each
calendar quarter submitted directly to the Committee on Appropriations, House of
Representatives. Financial transactions should be properly recorded and accounted for to
permit the preparation of reliable financial reports and to maintain accountability over assets.
This policy states that agencies should establish and maintain accounting and internal control
systems that provide reliable accounting for the activities of the agencies.

USAID did not submit its budget reports7 for the first two quarters of fiscal year 2000 to
OMB. According to USAID officials, this occurred because of system deficiencies in
processing mission data 8 . Specifically, during fiscal year 2000, USAID continued to
experience frequent disruptions with the Country Financial Reporting (CFR) system.
USAID’s Office of Financial Management was unable to obtain the financial data needed to
record the mission activities into the New Management System (general ledger) and submit
the reports to the OMB by the established deadline. Consequently, because of the incomplete
balances in the general ledger, USAID’s Office of Financial Management did not submit the
budget reports to OMB. As a result, USAID did not comply with OMB Circular A-34
reporting requirements during the periods mentioned above.

USAID Management agreed with the OIG findings and recommendations reported in our
Report to USAID Managers on Selected Internal Controls, dated March 31, 1999. However,
USAID has not taken corrective action to address this deficiency. Therefore, we are making
the following recommendation.

        Recommendation No. 2:We recommend that USAID’s Office of Financial
        Management develop and implement procedures to obtain the necessary
        information needed from its overseas missions to prepare and submit the
        required budgetary reports to the Office of Management and Budget as required
        by the Office of Management and Budget Circular A-34.




        6
                Federal Agencies Centralized Trial-Balance Systems II (FACTS II) electronically collects
U.S. Standard General Ledger account adjusted trial balances plus attributes from the federal agencies.
        7
                  Office of Management and Budget’s Standard Form 133, Report on Budget Execution,
reports budgetary resources, status of budgetary resources, and relation of obligations to outlays.
        8
                 Mission data is processed in the U-101 reporting system which processes the monthly U-101
Report Summary of Budget Allowance Ledger Transactions and Reconciliation with Disbursing Officer's
Accounts. The reports are electronically transmitted to USAID’s Office of Financial Management in
Washington and processed in the Country Financial Reporting (CFR) system which processes the information,
performs edit checks and produces a variety of reports including journal vouchers to be posted into the agency’s
general ledger.


                                                       6
Others Matters

At year-end, USAID made unsupported adjustments to transfer $144 million from its
Treasury Suspense Account 72 F 3875 to various appropriations. This occurred because:

•   USAID posted unliquidated advances to its Treasury Suspense account to avoid potential
    Anti-deficiency violations;

•   USAID did not liquidate and clear these advances during fiscal year 2000, and

•   The U.S. Treasury does not allow agencies to close the fiscal year with large amounts in
    its suspense accounts.

USAID intends to transfer these unliquidated advance balances back into the suspense
account during fiscal year 2001. Further, USAID plans to research and resolve these advance
items during fiscal year 2001. We will perform a review of these items during our fiscal year
2001 financial statement audit.


USAID Took Action to Improve Its Fund
Balance with the U.S. Treasury

During fiscal year 1999, USAID contracted with a Certified Public Accounting firm to assist
in performing USAID’s fund balance reconciliation and researching and resolving the
differences between USAID’s records and the U.S. Treasury’s records. The preliminary
results of the project indicate that USAID’s fund balance reconciliation process is improving.
We will verify the extent of USAID’s progress during our fiscal year 2001 financial
statement audit.




Management Comments and Our Evaluation
USAID’s Deputy Chief Financial Officer (D/CFO) commented that USAID’s management
officials (USAID Management) were pleased to note that we were able to determine that
adequate internal controls were implemented to permit reliable reporting of the Fund Balance
with the U.S. Treasury.

The D/CFO stated that USAID Management agreed to take the recommended actions but are
unable to specify when the actions on Recommendation No. 1.1 and 1.2 will be completed.
USAID Management believed that they are continuing their reconciliation efforts with all
available but clearly limited resources and will continue to do so until this matter is no longer
a reportable condition.




                                                7
We believe that USAID should be able to take the recommended actions by fiscal year ended
September 30, 2001. We have analyzed the 17,110 outstanding reconciling items of the
overseas missions and found that many of the items could be resolved and/or written off.
Although this report does not provide details on these items, we believe that the discussions
held with USAID’s Office of Financial Management officials provided enough information
about our review of these items.

The D/CFO stated that USAID will not be able to resolve Recommendation No. 2 until the
Phoenix Auxiliary Ledger, a feeder system for recording mission data into the Phoenix
General Ledger, will replace the Country Financial Reporting System (CFRS) in fiscal year
2002. Further, the D/CFO stated that the Phoenix Auxiliary Ledger would be replaced when
Phoenix is established and implemented at USAID’s overseas accounting stations. The
D/CFO commented that USAID would not produce the first and second quarter budgetary
reports for fiscal year 2001.

Accordingly, we will review the Phoenix Trial Balances, the CFRS reports, the Mission
Accounting Controls System reports, the implementation plans of the Phoenix Auxiliary
Ledger, and the Phoenix General Ledger at the overseas missions for the first and/or second
quarters of fiscal year 2001.




                                              8
                                                                              APPENDIX I
                                                                                Page 1 of 2



                    SCOPE AND METHODOLOGY




Scope
For fiscal year 2000, USAID’s Office of Inspector General agreed with USAID’s Office of
Financial Management that it would be advantageous for the audit to concentrate on selected
major balance sheet items. One of those balance sheet items is Fund Balance with the U.S.
Treasury. We analyzed the process for making entries to the Fund Balance with the U.S.
Treasury account. In addition, we reviewed the actual account reconciliations and USAID’s
procedures for making them. Accordingly, the scope of this audit was limited to the review
of USAID’s fund balance as of September 30, 2000. Therefore, this report does not contain
an opinion about the fairness of the statements taken as a whole.

At September 30, 2000, USAID’s Fund Balance with the U.S. Treasury line item amount is
$11.1 billion. The audited amount of USAID’s Fund Balance with the U.S. Treasury line
item was the $11.1 billion reported for that line item.

We conducted our audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the accounts audited are free from material misstatement.

We obtained an understanding of the design and implementation of relevant policies and
procedures within USAID’s Office of Financial Management for reconciling accounts,
researching and resolving differences and reporting the fund balance with the U.S. Treasury
accounts. We determined whether those procedures were adequate and had been placed in
operation to meet the objectives and requirements of the Treasury Financial Manual and
other regulations. We considered all reasonable efforts made by USAID Management to
improve the management of the reconciliation process and respond to our previous
recommendations relating to the Fund Balance with Treasury account.



Methodology
In accomplishing our audit objectives, we reviewed significant line items reported in
USAID’s balance sheet. These line items included accounts payable, the Fund Balance with
the U.S. Treasury, advances, and loan receivable.




                                             1
                                                                              APPENDIX I
                                                                                Page 2 of 2


To accomplish our Fund Balance specific audit objective, we:

       •      reviewed fund balance accounts and budgetary accounts,

       •      all available reconciliations and related documents,

       •      reviewed related reports submitted to U.S. Treasury and other federal
              regulatory agencies,

       •      reviewed the contractor’s reconciliation and other work performed to date,

       •      conducted meetings with USAID’s Office of Financial Management and its
              contractors, and

       •      selected the following four appropriations for review:

              •   No-Year Development Assistance (72X1021),
              •   1999/1990 Development Assistance (729/01021),
              •   1998/1999 Economic Support Fund (728/91037),
              •   No-Year Economic Support Fund (72X1037), and
              •   No-Year Operating Expense (72X1000).

       •      reviewed USAID’s funds control process.

We reviewed USAID’s compliance with laws and regulations related to the legal and
regulatory requirements for reporting fund balance with the U.S Treasury to determine
whether:

       1.     USAID’s reconciliation procedures for the Fund Balance with the U.S.
              Treasury line item is in compliance with the U.S. Treasury’s guidance,

       2.     USAID was meeting the timeliness for completion of the monthly
              reconciliation, which includes reconciling Fund Balance accounts and related
              records, and

       3.     USAID’s funds control and Anti-Deficiency reports are in compliance with
              USAID’s Administrative Control of Funds Policy and Procedures and other
              federal laws.

Based on USAID’s 1999 Net Cost of Operations, a materiality threshold of 5 percent was
calculated for the overall financial statements. Therefore, any amount over $314 million was
considered material and included in our review of USAID’s 2000 financial statements.




                                             2
                                                                                     APPENDIX II
                                                                                       Page 1 of 2


                       USAID MANAGEMENT COMMENTS




U.S. AGENCY FOR
INTERNATIONAL
 DEVELOPMENT


                                                                           February 9, 2001
        MEMORANDUM

        TO:         IG/A/FA, Alvin A. Brown

        FROM:      M/CFO, Elmer S. Owens

        SUBJECT: Audit of USAID’s Fund Balance with the U.S. Treasury
                 and Related Internal Controls for Fiscal Year 2000

            We have reviewed your draft report on the subject audit and agree with your findings and
        recommendations. We are extremely pleased to note that you were able to determine that
        adequate internal controls had been implemented that permitted reliable reporting of Fund
        Balance with Treasury.

           As for the specific recommendations, we agree to take the recommended actions.
        However, at this time, we are unable to specify when the action on Recommendation 1 will
        be completed. We are continuing our reconciliation efforts with all available but clearly,
        limited resources and will continue to do so until this matter is no longer a reportable
        condition.

                As regards Recommendation 2, this issue will not be resolved until the Country
        Financial Reporting System (CFRS) is replaced by the Phoenix Auxiliary Ledger. We expect
        the Phoenix Auxiliary Ledger to come on- line for FY 2002 operations. Therefore, for FY
        2001 we will continue to use the CFRS. Accordingly, we will not produce the first or second
        quarter budgetary reports. The Phoenix Auxiliary Ledger will be a repository of MACS
        transaction level data transmitted from each accounting station to M/FM. The repository will
        replace the CFRS and serve as the feeder system for posting the SGL entries into the Phoenix
        General ledger until Phoenix is deployed to the field accounting stations.




                                                     3
APPENDIX II
                                                                                 Page 2 of 2


            USAID MANAGEMENT COMMENTS


       I would like to thank you and your staff for the professional and cooperative manner
in which the audit was conducted.

Cc:    M/CFO, M. Smokovich
       M/CFO, T. Cully
       M/MPI, S. Malone-Gilmer
       M/FM, D. Ostermeyer
       M/FM CAR, T. Vapniarek
       M/FM/CAR, E. White




                                             4
